        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Management Alert on the
Department's Monitoring of the
Weatherization Assistance Program
in the State of Illinois




OAS-RA-10-02                     December 2009
                                  Department of Energy
                                     Washington, DC 20585

                                         December 3, 2009


MEMORANDUM FOR THE ASSISTANT SECRETARY
               FOR ENERGY EFFICIENCY AND RENEWABLE ENERGY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                   INFORMATION: Management Alert on the Department's Monitoring
                           Of the Weatherization Assistance Program in the State of Illinois

BACKGROUND

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's Weatherization Assistance Program received $5 billion to improve the energy
efficiency of homes owned or occupied by low income persons, reduce their total residential
expenditures, and improve their health and safety. Since the Recovery Act was enacted in
February 2009, the Department has awarded weatherization grants to every state, the District of
Columbia and five territories. Because of the unprecedented level of funding and the risks
associated with spending vast amounts of money in a relatively short period of time, the Office
of Inspector General (OIG) initiated a series of audits designed to evaluate the Program's internal
control structures at both the Federal and state levels. As part of our work, we are in the process
of reviewing Weatherization Program internal controls for the State of Illinois. We are also
currently performing identical audits in the States of North Carolina, Pennsylvania and Virginia.

Under the Recovery Act and the Department's Program, the State of Illinois received $242
million to weatherize 26,933 homes. The State of Illinois awarded these funds to 35 local
agencies responsible for determining recipients' eligibility, contracting for the installation of the
weatherization work, and conducting final inspections to ensure that work on homes was done in
accordance with requirements. Inspectors working for the local agencies are required to evaluate
the quality of mechanical and architectural improvements, such as furnace installations and
window caulking, and certify that the work performed meets established standards. Under a
Department approved plan in place at the time of our review, state officials were required to
evaluate the sufficiency of local agency monitoring controls and to inspect the work performed
on at least five percent of the units weatherized with Department funds during the program year
for each local agency.

IMMEDIATE CONCERN

We identified significant internal control deficiencies in the management of the Weatherization
Program in Illinois which require immediate attention. Specifically, our audit testing revealed
significant problems with on-site monitoring and inspection of the Illinois Home Weatherization
Assistance Program (Illinois). We noted that the Department had not fulfilled its requirement to
perform monitoring visits at the State level. In addition, Illinois officials had not complied with
the Department's requirements for inspecting weatherization work conducted by local agencies.
                                             2

Finally, we found that a weatherization inspection for one of the local agencies failed to detect
substandard installation of energy saving materials. This case involved a furnace gas leak that
could have resulted in serious injury to the occupants and material damage to the structure.
This is an interim report and our audit work remains in progress.

OBSERVATIONS

Our results to date have revealed significant on-site monitoring and inspection deficiencies in
meeting Department requirements. In particular, we found that:

   •   The State of Illinois had not inspected any of the weatherized units completed with
       Department of Energy funds during the State's most recent Fiscal Year at 7 of 35 local
       agencies. For three other local agencies, Illinois had performed some monitoring but did
       not meet minimum requirements to inspect at least five percent of weatherized homes.
       Illinois officials explained that they had performed monitoring activities at the seven
       agencies for homes funded by other sources, such as the U.S. Department of Health and
       Human Services. State officials noted that on a state-wide basis, they had inspected five
       percent of weatherized units and indicated that they were unaware, based on their prior
       experience with the Weatherization Program, that the inspected units had to be
       "Department of Energy" funded units and that the five percent requirement applied to
       individual local agencies rather than to the total program. Given the dramatic increase in
       Department-funded weatherization work, it is critical to ensure that the weatherization
       activities of each local agency are monitored in accordance with Department
       requirements.

   •   Illinois did not have a system for aggregating and tracking major findings identified
       during on-site monitoring visits to local agencies. Illinois is planning to develop an
       automated system capable of tracking overall performance by individual contractors and
       local agencies, but to date had relied on manual files that incorporate monitoring results
       on a case-by-case basis. Once developed, the new system will allow the State to meet the
       Department's requirements to annually summarize and to review each subgrantee's audit,
       program monitoring reports, and findings.

   •   A local agency weatherization inspector failed to perform a required test and did not
       detect a furnace gas leak. This deficiency could have resulted in serious injury to the
       occupants and significant damage or destruction of the residence. The inspector also did
       not identify problems with the installation of the intake and exhaust pipes of the same
       furnace, deficiencies that did not comply with the manufacturer's installation instructions
       and which could have voided the manufacturer's warranty.

   •   The Department's Office of Energy Efficiency and Renewable Energy had not detected
       inspection problems because it had not performed on-site monitoring/inspection visits of
       State of Illinois activity at the required frequency. We plan a more general discussion of
       our findings regarding the Office of Energy Efficiency and Renewable Energy's
       management of its Weatherization Assistance Program requirements in a separate report.
                                              3

Monitoring and oversight of local agencies is a vital part of the Weatherization Program process.
While there is no guarantee that Federal-level monitoring or state inspections will identify all
problems, such activities are essential to evaluate program performance, deter inappropriate
actions by contractors, identify poor workmanship that could lead to hazardous conditions, and
place participants on notice that standards are important and must be enforced.

As previously noted, we identified local-agency-level installation and inspection deficiencies that
could have resulted in serious consequences. To gain an understanding of the weatherization
process, we asked an Illinois program official to organize visits to homes weatherized by two
local agencies. Our visits included reviews of five homes covering all three phases of the
weatherization process, including the initial home assessment, work-in-progress, and final
inspection. We were accompanied on our visits by a State program official and a representative
from the local agency. During the inspection of one home, we noted that the local agency
inspector did not detect a gas leak on a newly installed furnace. In fact, this serious defect was
not identified until it was pointed out by the State program official who was accompanying the
OIG staff. The Illinois official requested that the local inspector perform a gas leak test. This
test, which should have been performed as part of the inspection, confirmed that a gas leak
actually existed. After being prompted to conduct the gas leak test, the local agency inspector
immediately issued a written notice of hazardous condition to the homeowner. State and local
officials also told us that they are taking action to resolve the immediate deficiencies we
identified and that they have plans to improve the training offered to contractors.

Subsequent to our visit, State officials indicated that the local agency had required the
weatherization contractor that installed the gas furnace to return to the home and repair the gas
leak and correct other installation errors. The local agency indicated that it planned to verify that
the leak was corrected, and State officials told us that they would confirm that the repairs were
completed. In addition, an official reported that Illinois is working on a statewide training
curriculum for contractors and plans to implement it within the next few months. However,
officials did not report any plans to conduct additional monitoring, testing or tracking of the
work of the involved local inspector or weatherization contractor.

As indicated in its weatherization plan approved by the Department for Recovery Act
implementation, Illinois also plans to improve its program administration by hiring 21 additional
staff. Officials indicated that they had not yet begun hiring or implementing their plans because
of a hiring freeze within the State.

RECOMMENDATIONS

State and local officials took action to address the specific and immediate problems we observed.
However, our concern is forward looking, and we concluded that the actions taken to date are not
sufficient to prevent or detect similar situations in the future. The weatherization contractor and
local-level-inspection deficiencies, in our opinion, raise concerns regarding the adequacy of
training and adherence to standards designed to ensure quality workmanship. Without additional
action by Federal and state officials to perform all required monitoring and inspection activities
and identify the source or cause of the installation and inspection issues, the overall goals of the
Weatherization Program and the Recovery Act are at risk. As important, the safety of
homeowners and area residents could be placed in jeopardy if substandard weatherization work
                                             4

goes undetected. Because of the seriousness of these issues, we made several recommendations
for expeditious management attention. Specifically, we recommend that the Assistant Secretary,
Energy Efficiency and Renewable Energy:

   1. Complete required state-level on-site monitoring; and,

   2. Take action to help ensure that states:

           a) Conduct annual on-site monitoring of the Weatherization Assistance Program at
              each local agency in accordance with program requirements;

           b) Meet the Department's minimum five percent requirement for inspecting homes
              weatherized by each local agency;

           c) Develop and implement a system to aggregate and track major findings from
              local agency monitoring visits to assess overall performance;

           d) Determine whether local agency inspectors and weatherization contractors have
              received appropriate training, and where appropriate, certification; and,

           e) Understand requirements for inspecting weatherized units funded by the
              Department.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Management concurred with recommendations and reported that it had either completed actions
or planned additional actions to implement the recommendations.

State officials asserted during a separate exit conference that the hazardous condition cited in our
report was not identified during the inspection of a heating system in a weatherized unit. We
noted, however, that the inspection we witnessed was formally characterized as a final inspection
of a heating unit by a local agency official, that a report of "Final Inspection of Weatherization
Work" was completed, signed by the homeowner and inspector, and provided to us at the
completion of our review. Based on both documentary and testimonial evidence prepared and
provided contemporaneously, we do not find the argument by State officials to be persuasive.

Management's planned and completed actions were responsive to our recommendations.

Management's written comments are attached to this report in their entirety.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Director, Office of Risk Management, CF 1.2
    Team Leader, Office of Risk Management, CF 1.2
    Diane Williams, Office of Risk Management, CF 1.2
    Audit Liaison, EE-3A
                        Response to Inspector General
     Management Alert: “The Department's Monitoring of the Weatherization
                 Assistance Program in the State of Illinois"


Recommendation 1
Complete required state-level on-site monitoring.

Response
Concur

DOE will complete on-site monitoring of all grantees during FY 2010.

Estimated Completion Date: September 30, 2010

Recommendation 2a
Take action to help ensure that states conduct annual on-site monitoring of the
Weatherization Assistance Program at each local agency in accordance with
program requirements.

Response
Concur

Guidance issued in the Weatherization Program Notice (WPN) 09-1 and 09-1B (see
Section 4 of attached) specifically advises grantees to conduct annual onsite monitoring
of the Weatherization Assistance Program at each local agency. The Department
continues to focus attention on monitoring by requiring that these comprehensive reviews
include a review of client files and sub grantees records, as well as inspection of at least
five percent of the completed units or units in the process of being weatherized. DOE
monitors will assure that this process is taking place during a DOE monitoring of the
grantee. Also, guidance requires that during a DOE monitoring, reviews of any findings
and non-compliance issues need to be reviewed to ensure appropriate follow-up action
and processes are in place at both the grantee and sub grantee levels. These processes
must include policies and procedures for timely reporting of situations found that could
adversely affect the health and safety of occupants or workers in weatherized homes, and
to ensure that such situations are addressed as soon as possible.

Additionally, for the State of Illinois, the field project officer will visit the State to work
with appropriate officials to determine the root cause of the poor workmanship. In an
effort to ensure that thorough final inspections are being conducted on every house, as
required by the regulations (10 CFR 440), the project officer will check for gas leaks
and verify that there is appropriate training available on the proper installation of intake
and outlet piping and for inspecting such installation.

Estimated Completion Date: Completed.
Recommendation 2b
Take action to help ensure that states meet the minimum five percent inspection
requirements for weatherization program homes at each local agency.

Response
Concur

Grantees must conduct a comprehensive assessment of each sub grantee at least annually.
The comprehensive assessments must include inspections of at least five percent of
completed housing units. Through desktop and on-site monitoring procedures, as
described in DOE’s comprehensive monitoring plan, DOE plans to monitor whether the
grantees are assessing sub grantees annually and whether the grantees are inspecting at
least the mandated five percent of homes weatherized. Additionally, DOE plans to
review the grantee and sub grantee processes for ensuring that each home is inspected by
the sub grantee for full compliance with program regulations and guidance prior to that
home being reported as a completed unit. DOE currently has 19 monitors on board with
selections pending on an additional 34 monitors. For FY 2010, DOE will monitor all
grantees, including Illinois.

Under the Weatherization Assistance Program Guidance (WPN 09-1B), DOE “strongly
encourages a higher percentage of units be inspected” (monitored) during a State’s
monitoring of each local agency. In addition, the WAP ARRA Monitoring Plan states
that DOE monitors will conduct on site inspections of homes at various stages in the
weatherization process and “random onsite monitoring visits of WAP grants will be
conducted in each state each year.”

Estimated Completion Date: September 30, 2010

Recommendation 2c

Take action to help ensure that states develop and implement a system to track
major findings from local agency monitoring visits to final resolution.

Response
Concur

DOE plans to operationalize the new web-based tracking and reporting system, called
Grant Reporting and Analysis Software System (GRASS) - see attached on information
about this monitoring tool. The web-based tool allows for project officers/monitors to
answer all quantitative and subjective questions via text boxes and electronic checklists.
The system will allow the project officer/monitor to flag questions/inquiries that require
additional follow up as well as quickly manage, organize and resolve findings from local
agency monitoring visits.

Estimated Completion Date: Completed


                                            2
Recommendation 2d
Take action to help ensure that states determine whether local agency inspectors
and weatherization contractors have received appropriate training, and where
appropriate, certification.

Response
Concur
DOE monitors will assure that this process is taking place during DOE on-site monitoring
of the grantee. Project officers/monitors are instructed to ensure that grantees are using
their training and technical assistance (T&TA) money appropriately to train contractors
and inspectors. This assurance will be determined during each monitoring visit, and
training activities will be monitored during desk reviews. During on-site DOE
monitoring visits DOE monitors will be checking to ensure that the planned activities
related to training, certification, or licensing of in-house staff, subcontractors, and any
other staff that perform duties in weatherized homes, are in fact occurring as specified in
the grantee’s DOE-approved grant application (State Plan).

Estimated Completion Date: Completed

Recommendation 2e
Take action to help ensure that states understand requirements for inspecting
weatherized units funded by the Department.

Response
Concur
DOE monitors will communicate with grantees through email to ensure grantees
understand the requirement to inspect five percent of weatherized units completed with
EERE funds. DOE monitors will require that each grantee acknowledge their
understanding of this requirement by written response. Additionally, DOE will evaluate
the grantees’ understanding of their monitoring requirements as part of its on-site
monitoring activities.

Estimated Completion Date: January 15, 2010




                                            3
 



                                                          IG Report No. OAS-RA-10-02

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162 or
Felicia.Jones@hq.doe.gov.
 
    




The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form.
    

    
    




    
